BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Amy Triplett Morgan, hereby certify that 1 copy
copy of the foregoing Brief for the American
Intellectual Property Law Association as Amicus
Curiae in Support of Petitioners in 20-1817, Ezaki
Glico Kabushiki Kaisha and Ezaki Glico USA Corp. v.
Lotte Int'l America Corp. and Lotte Confectionary Co.
Ltd., was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 29th day of July, 2021:
Jessica Lynn Ellsworth
Hogan Lovells US, LLP
555 13th Street, N. W.
Washington, DC 20004
(202) 637-5886
jessica.ellsworth@hoganlovells.com

Counsel for Petitioners
Mary Declan Hallerman
Snell & Wilmer L.L.P.
2001 K Street, N.W.
Suite 425 North
Washington, DC 20006
(202) 908-4262
mhallerman@sw law .com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

' (800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Richard S. Stockton
Counsel of Record
Banner & Witcoff, LTD.
71 S. Wacker Dr.
Suite 3600
Chicago, IL 60618
(312) 463-5000
rstockton@bannerwitcoff.com
Joseph R. Re
President
American Intellectual Property Law Association
1400 Crystal Dr.
Suite 600
Arlington, VA 22202
(703) 415-0780

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 29, 2021.

Am riplett Morgan
Becker Gallagher Legal P ublislii:ng,_Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

J

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Com,vssion Expires
reb:u,1ry 14, 2023

